No. 20-8075
IN THE SUPREME COURT OF THE UNITED STATES
___________________________
DAMANTAE GRAHAM,
Petitioner,
v.
STATE OF OHIO,
Respondent.
___________________________
ON THE PETITION FOR WRIT OF CERTIORARI
TO THE SUPREME COURT OF OHIO
___________________________
BRIEF IN OPPOSITION TO THE
PETITION FOR WRIT OF CERTIORARI
___________________________
VICTOR V. VIGLUICCI
Prosecuting Attorney
County of Portage, Ohio
PAMELA J. HOLDER
Assistant Prosecuting Attorney
Counsel of Record
Portage County Prosecutor’s Office
241 South Chestnut Street
Ravenna, Ohio 44266
(330) 297-3850
(330) 297-3856 (fax)
pholder@portageco.com
Counsel for Respondent
State of Ohio

QUESTIONS PRESENTED
1. After an appellate court assumes a trial court’s admission of irrelevant victim
impact testimony was error, is it required to grant a new trial?
2. When a court recognizes multiple constitutional violations and instances of
erroneously admitted evidence, should it be required to assess the errors
cumulatively before dismissing them all as harmless?

i

LIST OF PARTIES
The Petitioner is Damantae Graham, an inmate at the Ross Correctional
Facility. Graham is currently serving life in prison without the possibility of parole
consecutive to 64 years in prison.
The Respondent is the State of Ohio, represented by the Portage County
Prosecutor Victor V. Vigluicci and Assistant Prosecuting Attorney Pamela J. Holder.

ii

TABLE OF CONTENTS
Page
QUESTIONS PRESENTED………………………………………………

i

LIST OF PARTIES…………………………………………………………

ii

TABLE OF CONTENTS…………………………………………………..

iii

TABLE OF AUTHORITIES………………………………………………

v

STATEMENT OF THE CASE……………………………………………

1

STATE OF THE FACTS…………………………………………

1

STATEMENT OF THE PROCEDURAL HISTORY…………

4

REASONS FOR DENYING THE WRIT………………………………

5

I.

II.

Reasons to deny the writ of certiorari regarding
Graham’s First Question Presented…..............................

6

A. Decision based on state law regarding victim-impact
trial evidence was sound………………………………...

6

(1) Ohio permits victim-impact evidence at trial
in limited circumstances that were not present
in Graham’s trial……………………………………..

6

(2) Graham’s victim-impact trial evidence was not
prejudicial……………………………………………..

8

(3) Graham’s comparison with Satterwhite is
without merit…………............................................

10

B. Avoid creating law for a party who
cannot benefit from the action.…………………………

12

Reasons to deny the writ of certiorari regarding
Graham’s Second Question Presented……………………..

13

A. Rule 15.2 obligation to address any perceived
misstatements of fact or law……………………………..

14
iii

(1) Racial bias claim not proven…………………………

12

(2) Graham’s plain error failures regarding
other-acts evidence and prosecutorial
vouching claims…………………………………………

16

(3) Misplaced reliance on circuit court opinions………

18

B. Cumulative-error analysis is proper only when
multiple errors exist………………………………………..

20

C. Nature of proceedings - record on appeal limited
to plain error standard of review………………………….

20

CONCLUSION………………………………………………………………

22

iv

Cases

TABLE OF AUTHORITIES

Page(s)

Payne v. Tennessee, 501 U.S. 808 (1991)………………………………

6, 10

Satterwhite v. Texas, 486 U.S. 249 (1988)…………………………….

5, 10-12

State v. Arnold, 62 N.E.3d 153 (Ohio 2015)…………………………..

8

State v. Barnes, 759 N.E.2d 1240 (Ohio 2002)……………………….

16

State v. DeMarco, 509 N.E.2d 1256 (Ohio 1987)…………………….

19

State v. Fautenberry, 650 N.E.2d 878 (Ohio 1995)………………….

7, 8

State v. Garner, 656 N.E.2d 623 (Ohio 1995)…………………………

20

State v. Graham, 2020-Ohio-6700, 2020 WL 7391565………………

1, 4, 5, 8-12,
14-18, 20, 21

State v. Hartman, 754 N.E.2d 1120 (Ohio 2001)……………………..

10

State v. Lorraine, 613 N.E.2d 212 (Ohio 1993)……………………….

6-8

State v. Loza, 641 N.E.2d 1082 (Ohio 1994)…………………………..

7

State v. Reynolds, 687 N.E.2d 1358 (Ohio 1998)………………………

9, 10

State v. Wilks, 114 N.E2d 1092 (Ohio 2018)…………………………...

10

Strickland v. Washington, 466 U.S. 668 (1984)………………………..

20

United States v. Azmat, 805 F.3d 1018 (11th Cir.2015)………………

18

United States v. Canales, 744 F.2d 413 (5th Cir.1984)……………….

18

United States v. Olano, 507 U.S. 752 (1993)……………………………

16

United States v Rivera, 900 F.2d 1462 (10th Cir.1990)……………….

18, 19

v

Statutes, Rules, and Constitutional Provisions
Fed. Crim.R. 52……………………………………………………………..

16

Ohio Crim.R. 52…………………………………………………………….

13, 16, 20

Ohio Rev. Code 2929.06……………………………………………………

12

Supreme Court Rule 15.2…………………………………..………….…..

4, 12, 14, 16

Other Authorities
State v. Graham, Portage C.P. No. 2016 CR 00107 E
(March 10, 2021)………………………………………………………….

1, 12

vi

STATEMENT OF THE CASE
Petitioner Damantae Graham is not on death row.
Graham is serving life without the possibility of parole for the aggravated
murder of Nick Massa. State v. Graham, Portage C.P. No. 2016 CR 00107 E (March
10, 2021). He was also convicted and sentenced to consecutive prison terms for
aggravated burglary, aggravated robbery, three counts of kidnapping and two firearm
specifications for holding the occupants of an apartment at gunpoint during a robbery
and burglary where he fatally shot Massa. State v. Graham, 2020-Ohio-6700, 2020
WL 7391565, ¶ 217; State v. Graham, Portage C.P. No. 2016 CR 00107 E (March 10,
2021).
Statement of the Facts
The Supreme Court of Ohio summarized the facts that established Graham’s
guilt beyond a reasonable doubt:
Evidence introduced at trial showed that Graham, a 19-year-old,
shot Nicholas Massa during the robbery of an apartment in Kent, Ohio.
The state presented the testimony of, among others, the two surviving
robbery victims and Graham’s three co-defendants.
A. Kremling plans to rob Haithcock
Connor Haithcock, a 19-year-old, and Justin Lewandowski, a 20year-old Kent State University student, were roommates at the Ryan
Place apartments in Kent. Massa, an 18-year-old Kent State University
student, often visited the apartment.
Haithcock sold marijuana and “dabs,” a concentrated form of
tetrahydrocannabinol, also known as THC, from the apartment.
Haithcock sold marijuana to 17-year-old Ty Kremling, his former high
school classmate, on two occasions. On those occasions, Kremling
noticed that Haithcock kept marijuana and a significant amount of
money in a lockbox in the apartment.
Soon after his second purchase of marijuana, Kremling decided to
rob Haithcock. On Super Bowl Sunday, February 7, 2016, he began
planning the robbery for later that day. Kremling asked two of his
1

friends, Graham and 17-year-old Marquis Grier, if they would like to
take part in a robbery. Kremling told them it would be easy, and he
shared details with them: the location of the apartment, the valuable
items in the apartment, and the intended target of the crime (Haithcock)
and how he knew him. Graham and Grier agreed to participate.
Kremling then called 17-year-old Anton Planika, a friend who
owned a truck. Kremling told Planika that he needed a ride to Kent to
commit a robbery. Planika later testified that Kremling had told him
that it was a “sure thing” and had asked him if he “wanted in on it.”
Planika agreed to participate.
Kremling, Grier, Graham, and Planika met at a house on
McElrath Avenue in Ravenna. According to Planika, Kremling said they
were going to take everything from Haithcock. Planika testified, “He
[Kremling] said that he’d been there over the weekend and they had an
Xbox One and money and drugs.” They planned to use bandanas and
hoodies cinched tightly to cover their faces. According to Grier, he and
Graham each had a .380-caliber High Point semiautomatic handgun to
use during the robbery.
B. Massa is killed during the planned robbery
On the afternoon of February 7, Haithcock, Lewandowski, and
Massa were at Haithcock’s and Lewandowski’s apartment. Haithcock
and Massa were playing Xbox, and Lewandowski was hanging
decorations on the wall, using a hammer.
Shortly before 4:00 p.m., Planika, Kremling, Grier, and Graham
arrived at the Ryan Place apartment building. Planika backed into a
parking space at a nearby business and stayed in the truck. Kremling,
Graham, and Grier entered the building, partially covered their faces
with bandanas and hoodies as planned, and proceeded to Haithcock’s
and Lewandowski’s third-floor apartment. Despite their disguises,
Kremling, Grier, and Graham could be distinguished from each other by
their physical characteristics: Kremling is tall and light-skinned, Grier
is shorter that Kremling and is light-skinned, and Graham is short and
dark-skinned.
According to Kremling, Graham knocked on the apartment door
and Lewandowski opened it. Graham and Grier barged into the living
room with their guns drawn. Graham ordered Lewandowski to drop the
hammer he was holding. He dropped it and put his hands in the air.
Graham ordered Haithcock, Lewandowski, and Massa to sit on
the living-room couches. According to Haithcock, the short, darkskinned man (later identified as Graham) was doing the talking. He
asked Haithcock, “Where’s the money[?] [W]here’s the dope[?]”
Haithcock said that it was all in the lockbox on the kitchen table. Grier
took the dabs and marijuana from the lockbox. Graham put a gun to

2

Haithcock’s head demanding money. Haithcock gave Graham $500 or
$600 from his pocket. The robbers then demanded more money.
Haithcock told the robbers that there might be more money in his
bedroom. Graham told Grier to take Haithcock to the bedroom to look.
Kremling accompanied them. Meanwhile, Graham stayed in the living
room guarding Massa and Lewandowski, who remained seated on the
couch with their hands up. At trial, Lewandowski described what
happened next:
Nick [Massa] looked over at me and the short dark skinned
male [Graham] said, what the f[---] are you looking at him
for? If you look over at him again I’m gonna shoot you. And
Nick immediately replied you’re not going to shoot me. And
as soon as he did that, the short, dark-skinned male shot
him [in the chest].
C. Perpetrators flee the scene and split up
After hearing the gunshot, Grier and Kremling hurried into the
living room and saw that Massa had been shot. According to Kremling,
Grier asked Graham if he had just shot him, and Graham said, “[Y]eah.”
The three of them ran out of the apartment and fled in Planicka’s truck.
According to Planicka, Grier asked Graham, “[W]hy do you have to
always be doing hot sh[--] like that[?]” and Graham replied, “he thought
sh[--]was sweet and I wasn’t playing.” Graham then gave each of them
$100, from what he had taken from Haithcock.
They returned to the house in Ravenna, where they divided up
the marijuana. Graham told them that they did not have to worry about
getting caught, because the gun had jammed, so the shell casing had not
ejected. He showed them the casing. The four of them left the house
separately. Graham told Grier a couple days later that he had broken
up the gun and thrown it in a wooded area.
D. Police Investigation
After the three robbers left his apartment, Lewandowski called 91-1 and reported the shooting. Haithcock got on the phone and told the
operator that Ty Kremling was one of the robbers. During the trial,
Haithcock testified that he had recognized Kremling by “[h]is height, *
* * his build, the way he carried himself, [and] the way he walked.”
Shortly after the 9-1-1 call, the police and medics arrived, and Massa
was pronounced dead at the scene.
On the afternoon of February 7, Detective Richard Soika began
looking for Kremling and the getaway truck – Planicka’s green, fourdoor truck had been captured on video by a camera positioned near
Haithcock’s and Lewandowski’s apartment. Soika contacted AT&T and
requested that he receive alerts on the location of Kremling’s phone.
Police located Kremling in the Stow area and arrested him. The next
morning, Kremling admitted his involvement in the robbery. Kremling
3

said that he had not intended to kill anyone but that he had intended to
rob Haithcock for drugs and money. Kremling would not disclose the
names of the other perpetrators.
On February 8, the police learned that Planicka had been the
getaway driver. Further investigation identified Graham and Grier as
suspects, and the police obtained physical descriptions and photos. On
February 10, Grier was arrested. Grier admitted his involvement in the
robbery but claimed that he had not expected anyone to get hurt.
Meanwhile, the police learned that Graham was staying at a house in
Ravenna, and a task force found him hiding in a room inside that house.
On February 12, Soika interviewed Graham at the Portage
County sheriff’s office. Graham said, “I wasn’t there,” when he was
questioned about his involvement in the robbery and murder.
E. Medical examiner’s testimony
Dr. George Sterbenz, the chief deputy medical examiner for
Summit County, conducted Massa’s autopsy. He testified that Massa
died from a single bullet that entered his chest and traveled at a
downward angle through his heart, aorta, and left lung. Dr. Sterbenz
stated that the wound was consistent with the shooter’s having stood
over Massa while he was seated. Based on the injuries to Massa’s body
and the lack of gunshot residue on Massa’s clothing, Dr. Sterbenz said
that the muzzle of the handgun was at least six inches from Massa when
he was shot.
Graham, 2020-Ohio-6700, at ¶ 2-19.
Statement of the Procedural History
Graham’s procedural history is still ongoing in the Ohio state court system.
Supreme Court Rule 15.2
On April 8, 2021, Graham filed a direct appeal of his resentence in the Eleventh
District Court of Appeals. This first level of state review of his sentence pursuant to
the Supreme Court of Ohio’s remand order is currently pending.
Postconviction proceedings are a secondary review of the trial proceedings. On
October 17, 2018, Graham filed a petition for postconviction relief in the trial court
and the State of Ohio filed an answer. On April, 16, 2019, new counsel for Graham

4

filed another petition for postconviction relief and the State of Ohio filed an answer.
Postconviction proceedings are currently pending at the trial court level in this
matter.
The State of Ohio now responds to Graham’s Petition for a Writ of Certiorari.
REASONS FOR DENYING THE WRIT
Reasons to Deny the Writ of Certiorari Regarding Graham’s
First Question Presented:
The evidence at trial established Graham fired the fatal shot into Nick Massa
during an active robbery and burglary of an apartment. The jury heard testimony
from everyone, co-defendants and victims, who were present inside the apartment
during the crimes except Graham and Massa. The jury also heard from Massa’s
father. It is the father’s testimony that gives rise to Graham’s First Question
Presented.
Graham contends that because the Supreme Court of Ohio assumed the trial
court admitted irrelevant victim impact testimony it is required to grant him a new
trial. Graham invites this Court to grant Certiorari to review the admission of victimimpact evidence submitted at the trial (guilt) phase of a capital case by criticizing the
Supreme Court of Ohio’s decision and likening his case to Satterwhite v. Texas, 486
U.S. 249 (1988).
Here, the Supreme Court of Ohio made no assumptions. The court held the
father’s victim-impact trial evidence was irrelevant, subject to a prejudicial review,
and a new trial was not warranted. Graham, 2020-Ohio-6700, at ¶ 119-120, 134. This
Court should deny Graham’s Writ of Certiorari regarding his First Question
5

Presented for two reasons. First, Graham is nothing more than defendant dissatisfied
with the outcome of a Supreme Court of Ohio’s decision based on sound state law.
Second, this is an attempt to create law for a party who will not benefit from the
action
A. Decision based on state law regarding victim-impact trial evidence was
sound
(1) Ohio permits victim-impact evidence at trial phase in limited
circumstances that were not present in Graham’s trial
“The victims cannot be separated from the crime.” State v. Lorraine, 613
N.E.2d 212, 218-219 (Ohio 1993). Ohio has a long history of respecting victim’s rights
while ensuring the defendant receives a fair trial proceeding.
This Court has held there was no per se bar to the introduction of victim-impact
evidence and argument. Payne v. Tennessee, 501 U.S. 808, 827 (1991). Payne reviewed
victim-impact evidence in the context of the sentencing (mitigation) phase of a capital
case. The bar in Payne was whether the admission of the victim-impact evidence at
the sentencing phase was so unduly prejudicial that it rendered the trial
fundamentally unfair. Id. at 825.
A few years after Payne, the Supreme Court of Ohio was asked whether
evidence regarding a murdered couples advanced age, length of their marriage,
physical weaknesses, the wife’s mental alertness, the couple’s suffering, and the lack
of clothing on one of the victims when found constituted prejudicial victim-impact
evidence. Lorraine, 613 N.E.2d at 218. The appellant argued the character evidence
illustrated the victims’ lifestyle and would cause the jury to empathize with the

6

elderly couple. Id. at 219. The court held viewing the record as a whole, “the
presentation of the lifestyles of the victims can hardly be deemed prejudicial.” Id.
The next year in Loza, the court found a prosecutor’s comments that a group
of murder victims included a pregnant woman and constituted the loss of “many
years” of combined life expectancy did not violate Ohio’s law as improper victimimpact evidence at the sentencing phase of a capital case. 641 N.E.2d 1082, 1105
(Ohio 1994). The Loza court stated, without explanation, that while the use of victimimpact evidence to argue for a death penalty in the sentencing phase was improper
“the same evidence may be admissible, relevant evidence in the guilt phase of the
proceedings.” Id.
The following year, the Supreme Court of Ohio provided clarification of its
limited victim-impact evidence discussion in Loza. State v. Fautenberry, 650 N.E.2d
878, 883 (Ohio 1995). The prosecutor’s comments in Loza “fit within the fairly broad
definition of victim-impact evidence contemplated in Payne [and] they also represent
a recitation of the facts and circumstances surrounding the offense that were
introduced during the guilt phase of the trial.” Id. The Supreme Court declared that
“true victim-impact evidence” as intended in Ohio’s Revised Code would be
“considered by the trial court prior to imposing sentence upon a defendant, not during
the guilt phase.” Id. The Fautenberry court continued to explain that the prosecutor’s
comments in Loza were properly admitted because, “[E]vidence which depicts both
the circumstances surrounding the commission of the murder and also impact of the

7

murder on the victim’s family may be admissible during both the guilt and the
sentencing phases.” Id.
The Supreme Court of Ohio limits the use of true victim-impact evidence to
consideration at sentencing by the trial court at the sentencing phase. Fautenberry
at 883. However, evidence illustrative of the nature and circumstances of the crime
at the trial phase may be victim-impact evidence involving the physical condition and
circumstances of the victim and its impact on the family when relevant to the crime
as a whole. Id. These circumstances were not presented at Graham’s trial.
Accordingly, the father’s victim-impact evidence was “irrelevant and should not have
been admitted at trial.” Graham, 2020-Ohio-6700, at ¶ 119.
As erroneous evidence was admitted at trial, the Supreme Court of Ohio
reviewed Graham’s trial proceedings to determine whether the defendant’s
substantial rights were affected warranting a new trial. See e.g. State v. Arnold, 62
N.E.3d 153 (Ohio 2015). Here, the father’s testimony did not meet the limited
circumstances for permissible victim-impact trial evidence, the Supreme Court
engaged in a review of the trial proceedings for prejudice affecting Graham’s
substantial rights, and found a new trial was not warranted. Graham, 2020-Ohio6700, at ¶ 119-120. The Supreme Court of Ohio’s review of Graham’s trial proceedings
for prejudice is discussed next.
(2) Graham’s victim-impact trial evidence was not prejudicial
Contrary to Graham’s assertions, the Supreme Court of Ohio conducted a
sound legal analysis and found the victim-impact trial evidence was not prejudicial.

8

Graham, 2020-Ohio-6700, at ¶ 134. The Supreme Court ascertained whether the trial
court’s error affected Graham’s substantial rights requiring a new trial. Id. at ¶ 120.
To consider the impact of the father’s evidence on the verdict, the court focused on
whether the testimony was overly emotional by reviewing: (1) the length of the
testimony, (2) whether there were physical signs of emotion during the testimony, (3)
the detail and depth of the victim-impact testimony with regard to the murder victim,
(4) whether emotionally charged language was used, (5) the number of victim-impact
witnesses, and (6) precedent regarding similar cases involving allegedly overly
emotional victim-impact testimony. Id. at ¶ 126.
The factors in relation to the father’s testimony revealed that his testimony
was not overly emotional. Graham, 2020-Ohio-6700, at ¶ 127. Mr. Massa’s testimony
was 10 pages of a 562-page transcript where the father responded to 20 questions
from the prosecutor and sometimes spoke in uninterrupted narrative form. Id. at ¶
128. The record did not indicate any physical manifestation of grief from this single
victim-impact witness. Id. at ¶ 129. The State’s last witness left the jury “with a
loving father’s last memory of his only son prior to the state resting its case.” Id.
Comparison to similar Ohio capital cases that were also found to be not overly
emotional included: a son who became so distraught discussing the loss of his mother
he was unable to respond to the prosecutor’s questions; a mother discussing the loss
of her daughter in terms of her early childhood accomplishments, school years, and
family ties across the states and then summarizing “It’s been about nine months now
since our daughter Winda was brutally murdered. It has been an extremely bad time

9

for all of us and will be from now on. She’ll never leave our hearts;” and a grief
stricken sister who briefly eulogized her sister on direct-examination. State v.
Reynolds, 687 N.E.2d 1358, 1368-1369 (Ohio 1998)(no plain error found in four
propositions of law raised regarding victim-impact evidence at the sentencing phase);
State v. Hartman, 754 N.E.2d 1120, 1171-1172 (Ohio 2001)(no error regarding lack of
limiting jury instruction on mother’s victim-impact evidence); and State v. Wilks, 114
N.E2d 1092, 1113 (Ohio 2018)(sister’s brief testimony not overly emotional as she did
not mention the effect of victim’s death on the family or possible penalty).
In Payne, this Court sought to protect the fundamental fairness of the
appellant’s trial by ensuring the admission of the victim-impact evidence at the
sentencing phase was not unduly prejudicial Payne at 825. In Ohio, victim-impact
trial evidence is limited to certain circumstances and when they are not present, like
in Graham’s case, the admission of victim-impact trial evidence is erroneous. Here,
Graham’s victim-impact trial evidence was irrelevant, subject to a prejudicial review,
and a new trial was not warranted. Graham, 2020-Ohio-6700, at ¶ 120, 127. While
Graham may be dissatisfied with the results of this decision, dissatisfaction alone is
not grounds to challenge a decision based on state law regarding victim-impact trial
evidence.
(3) Graham’s comparison with Satterwhite is without merit
In an attempt to further discredit the Supreme Court of Ohio’s decision,
Graham makes a simplistic comparison to a legal argument rejected in Satterwhite,
486 U.S. 249. However, the final witness in the State of Ohio’s case in chief against

10

Graham was nothing like Dr. Grigson, the government’s final witness in Satterwhite.
The distinct nature of the victim-impact evidence in these two cases makes Graham’s
comparison meritless.
In Satterwhite, Dr. Grigson was the only licensed physician at trial and he had
impeccable educational background and qualifications. Satterwhite, 486 U.S. at 259.
The doctor provided an expert medical opinion on the precise issue the sentencing
jury was considering. In Dr. Grigson’s expert opinion, Satterwhite “will present a
continuing threat to society by continuing acts of violence” he has “a lack of
conscience” and is “as severe a sociopath as you can be.” Id. Regarding the issue of
sentencing and future dangerousness, Dr. Grigson’s “most devastating opinion of all:
he told the jury that Satterwhite was beyond the reach of psychiatric rehabilitation.”
Id. at 259-260. The prosecutor emphasized the doctor’s opinions in his closing
reminding the jury that this was Satterwhite’s personality not a disease or an illness
that was capable of being cured. As future dangerousness was significant to the
sentencing jury, Dr. Grigson was the only psychiatrist to testify, and the prosecutor
placed important weight on his powerful testimony, this Court found it impossible to
say beyond a reasonable doubt that the doctor’s opinions on Satterwhite’s future
dangerousness did not influence the sentencing jury. Id. at 260.
In Graham, a Kent State University student was fatally shot inside an
apartment during an active robbery and burglary where everyone inside the
apartment testified for the State of Ohio except the defendant and the deceased. The
State of Ohio presented Mr. Massa to establish proof of life. As the last witness in the

11

State of Ohio’s case in chief against Graham, Mr. Massa was not a relevant fact
witness and the trial court’s admission of his evidence was error. Graham, 2020-Ohio6700, at ¶ 116, 119.
Unlike the unequivocal and powerful testimony from the only medical expert
who offered a devastating opinion on the very issue facing the sentencing jury in
Satterwhite, the Graham victim-impact evidence was not prejudicial. First, the
evidence did not inflame the passion of the jury to determine Graham’s guilt on a
purely emotional basis. Id. at 210. Second, the evidence when excised from the trial
allowed a reviewing court to say Graham was guilty from the properly admitted
evidence beyond reasonable doubt. Id. Such a determination was not possible in
Satterwhite due to the nature of Dr. Grigson’s testimony, the relevancy of his subject
matter and the sentencing jury’s specific duty being largely dependent on
Satterwhite’s future dangerousness. Satterwhite, 460 U.S. at 260. The vast
differences between nature of the testimony offered by Mr. Massa and Dr. Grigson
renders Graham’s comparison of two cases meritless.
B. Avoid creating law for a party who cannot benefit from the action
Graham’s proposition of law alleging error from the admission of the father’s
victim-impact evidence sought “a new trial, or in the alternative, a new mitigation
trial.” Here, the Supreme Court of Ohio vacated Graham’s sentence, on other
grounds, and ordered a remand to the trial court for resentencing consistent with the
Ohio Rev. Code 2929.06. Graham, 2020-Ohio-6700, at ¶ 217. In Ohio, Rev. Code
2929.06 governs the resentencing of an individual after the sentencing of death has

12

been set aside, nullified or vacated. On remand, trial court resentenced Graham to
life without the possibility of parole. State v. Graham, Portage C.P. No. 2016 CR
00107 E (March 10, 2021).
Graham is no longer a capital defendant. Any extension of Payne to victimimpact evidence during the trial (guilt) phase of capital proceedings would be a
remedy that Graham could not take advantage of in Ohio. Contrary to contentions
made on petition, Graham’s case does not present the opportunity he claims
regarding victim-impact evidence. Accordingly, this Court should deny Graham’s
Writ of Certiorari regarding his First Question Presented because the invitation to
expand Payne is a meritless challenge from a dissatisfied defendant to a decision
based on state law and an attempt to create law for a party who will not benefit from
the action.
Reasons to Deny the Writ of Certiorari Regarding Graham’s
Second Question Presented:
In his petition for Writ of Certiorari, Graham referenced 4 sections of the
Supreme Court of Ohio’s decision and several circuit court opinions as support for his
Second Question Presented. As trial counsel did not object to 3 of the 4 issues Graham
intended to rely on as support, the review of these claims was limited to plain error
on direct appeal. Unlike an objected error reviewed under the harmless error
standard were the State bears the burden of demonstrating that the error did not
affect the substantial rights of the defendant, errors not raised at trial are limited to
a plain error standard of review. Ohio Crim.R. 52(A, B). Under the plain error
standard of review, the defendant bears the burden of demonstrating that the plain
13

error affected his substantial rights. Ohio Crim.R. 52(B). Graham failed in his plain
error burden. Despite that failure he asserts a novel proposition as a Second Question
Presented.
Graham’s proposition is that a reviewing court’s recognition of multiple
constitutional errors and instances of erroneously admitted evidence triggers a
requisite cumulative error analysis. Contrary to Graham’s contentions, his case does
not contain multiple constitutional errors and the doctrine of cumulative error does
not permit review of multiple “instances of erroneously admitted evidence.” The
reasons to deny this Second Question Presented include: (1) multiple perceived
misstatements of fact and law, (2) Graham’s failure under his plain error burden, and
(3) the nature of his trial court proceedings.
A. Rule 15.2 obligation to address any perceived misstatements of fact or law
The State of Ohio begins by noting several perceived misstatements of fact and
law contained within Graham’s petition.
(1) Racial bias claim not proven
Contrary to Graham’s bald assertion his venire was not racist. At defense
counsel’s request, the trial court conducted individual voir dire of 88 perspective
jurors on the issues of pretrial publicity and the death penalty over 3 days and then
reconvened to conduct general voir dire. Graham claims a racist venire by citing three
prospective jurors, two who made comments while alone with the judge and attorneys
and the last prospective juror questioned whose group was not considered during

14

general voir dire. Graham, 2020-Ohio-6700, at ¶ 39-40. “Graham points to no
evidence showing that any other prospective juror harbored racial bias.” Id. at ¶ 43.
Regarding Graham’s claim that Prospective Juror No. 38’s statements may
have been overheard by other prospective jurors, the Supreme Court of Ohio found
“the record does not support a finding that the jury was tainted by prospective juror
No. 38’s comments and slurs, because those comments and slurs were not made or
referred to in the presence of other perspective jurors.” Id. at ¶ 39. Rather, the record
demonstrated that the trial court stated at the beginning of individual voir dire “At
this time, we are going back into the jury room and you will be brought in one at a
time to be questioned by the court an then by the attorneys. (Emphasis added)” Id.
Regarding Graham’s claim that Prospective Juror No. 195 influenced other
prospective jurors. The Supreme Court of Ohio found “[B]ecause prospective juror No.
195 was the last prospective juror to be questioned during individual voir dire, the
number of prospective jurors who were able to hear his comment was quite small, as
many had left the courtroom after participating in individual voir dire.” Graham,
2020-Ohio-6700, at ¶ 40. Moreover, Graham’s entire jury and alternates was sat by
prospective juror No. 100, none of the prospective jurors attending the October 27,
2016, individual voir dire proceedings with prospective juror No. 195 were
“considered for selection before the jury was seated.” Id.
Regarding Graham’s claim that Prospective Juror No. 64’s habit of watching
the Gunsmoke television show and his comment about lynching’s in 1835 was racist,
the Supreme Court of Ohio held “no other prospective jurors heard this comment”

15

and “there is also no support that prospective juror No. 64’s comment tainted the
jury.” Id. at ¶ 41.
Without evidence that other prospective jurors harbored racial bias, Graham
presented nothing more than speculation as to bias which does not justify quashing
an entire venire. Graham, 2020-Ohio-6700, at ¶ 43. Further, trial counsel was
without grounds to move for a new venire as the court excused prospective juror No.
38 and the small group of prospective jurors exposed to prospective juror No. 195 were
questioned and stated they could be fair and impartial. Id. at ¶ 47. Further,
prospective juror #64 was removed from the panel by a defensive peremptory
challenge. Id. at ¶ 37.
Another perceived misstatement is the reason why the Supreme Court of Ohio
rejected Graham’s proposition of law regarding racial bias. Graham failed to carry
his burden under plain error that “any seated juror actually harbored racial bias” not
that the 3 challenged prospective jurors were kept off his jury. Id. at ¶ 51.
Accordingly, the plain error standard of review in relation to his case is the next area
needing addressed pursuant to Rule 15.2
(2) Graham’s plain error failures regarding other-acts evidence and
prosecutorial vouching claims
At trial, Graham failed to object to the alleged racial bias, other-acts evidence
and prosecutorial vouching thereby waiving all but plain error. Graham, 2020-Ohio6700, at ¶ 31, 64, 95. To establish plain error, Graham was required to show “that an
error occurred, that the error was plain, and that the error affected the outcome of
the trial.” State v. Barnes, 759 N.E.2d 1240, 1247 (Ohio 2002), citing United States v.
16

Olano, 507 U.S. 752, 732, (1993)(interpreting Ohio Crim.R. 52(B)’s identical federal
counterpart, Fed.Crim.R. 52(b)).
As previously stated, Graham failed to show error regarding his racial bias
claim because he did not show any error under the first prong of the plain error
review. Id. at ¶ 39-41. Graham also failed under the third prong of his plain error
burden on appeal to establish an affect to the outcome of his trial due to the strength
of the State’s case at trial. The third prong failures appear in his other-acts evidence
and prosecutorial vouching claims.
The challenged other-acts evidence included a comment made by the
prosecutor during opening statement, Kremling’s testimony that he knew Graham to
carry a gun was and the admission of a photograph depicting Graham smiling while
posing with two handguns at the McElrath Avenue house a few days before the
incident. The Supreme Court of Ohio held only Kremling’s testimony and photograph
were improper. Id. at ¶ 74, 78, 92. However, under a plain error standard of review
Graham failed to establish plain error regarding Kremling’s testimony or the
photograph. Id. at ¶ 93.
Graham failed to establish plain error under the third prong of plain error
review due to the overwhelming evidence of guilt presented at his trial. Graham,
2020-Ohio-6700, at ¶ 93. “Such evidence included Lewandowski's eyewitness
testimony describing the shooter, a description that matched Graham, and Grier's
and Kremling's testimony that Graham admitted that he had shot Massa during the
robbery. Thus, no plain error occurred.” Id. The Supreme Court of Ohio held

17

“Graham cannot meet his burden to prove that the prosecutor's statement,
Kremling's testimony, or the introduction of the photo prejudiced him by affecting the
outcome of the trial, in light of the remaining evidence of Graham's guilt.” Id.
Similarly, Graham’s prosecutorial vouching claim failed under plain error. Id. at ¶
98-100.
Unfortunately, 3 of Graham’s 4 references intended to support his Second
Question Presented fail because they were limited to a plain error standard of review
on appeal as dictated by trial counsel’s performance at trial. Upon finding Graham’s
claims of racial bias, other-acts evidence and prosecutorial vouching did not rise to
level of plain error, the Supreme Court of Ohio considered whether trial counsel’s
conduct regarding those issues as well and many others cumulatively deprived
Graham of his constitutional right to a fair trial. Id. at ¶ 169-173. The Court found
that it did not. Id. at ¶ 172-173.
(3) Misplaced reliance on circuit court opinions
Another perceived misstatement that needs addressed under Rule 15.2 is
Graham’s reliance on three circuit court cases in support of his claim that his
conviction requires reversal despite the appellate attorney’s failure to raise
cumulative error in the Supreme Court of Ohio. United States v. Azmat, 805 F.3d
1018 (11th Cir.2015); United States v Rivera, 900 F.2d 1462 (10th Cir.1990); and
United States v. Canales, 744 F.2d 413 (5th Cir.1984). In Azmat, the court found Dr.
Azmat’s “final claim necessarily fails, as there can be no cumulative error where there

18

are no individual errors.” Azmat, 805 F.3d at 1045. Dr. Azmat raised the issue of
cumulative error in the Eleventh Circuit and was unsuccessful. Id.
Similarly, in Canales, the court reviewed “certain factors, common to most of
appellants’ claims of improper argument and alleged prosecutorial misconduct” was
“that the cumulative effective of several incidents of improper argument or
misconduct may require reversal.” Canales, 744 F.2d at 430. Although common to
most all of the Canales’ claims, the Fifth Circuit did not find cumulative error. Id. In
both Azmat and Canales, the appellants raised the cumulative-error arguments on
appeal. These do not support Graham’s position that sua sponte a reviewing court is
required to conduct a cumulative-error review upon identification of more than one
harmless error.
Moreover, in Rivera, the defendant completely failed to demonstrate the
existence of any error in the conduct of his trial once the Tenth Circuit denied a
challenge to the government’s use of evidence on two specific transactions. Rivera,
900 F.2d at 1471. The circuit court was left to review the cumulative effect of rulings
that may have contributed to a conviction but did not amount to error. Id. The Tenth
Circuit found “there is no holding of error, no error to cumulate, and no occasion to
apply a cumulative-error analysis.” Id. at 1472. While providing guidance on the
doctrine of cumulative error, Rivera does not stand for the proposition asserted by
Graham on petition. Accordingly, Graham’s reliance on these cases is misplaced.

19

B. Cumulative error analysis is proper only when multiple errors exist
In Ohio, the doctrine of cumulative error was first recognized in State v.
DeMarco, a case that involved a fraudulent insurance claim where the defendant
alleged his automobile had been stolen. 509 N.E.2d 1256 (Ohio 1987). The Supreme
Court of Ohio held the cumulative effect of three separate instances of hearsay
testimony regarding misconduct by the defendant (alleged bank fraud and delinquent
loan accounts) was prejudicial. Id. “Although violations of the Rules of Evidence
during trial, singularly, may not rise to the level of prejudicial error, a conviction will
be reversed where the cumulative effect of the errors deprives a defendant of the
constitutional right to a fair trial.” DeMarco, paragraph 2 of the syllabus. As the
doctrine developed, the court held that it was inapplicable when there were not
multiple instances of harmless error. State v. Garner, 656 N.E.2d 623, 6378-638 (Ohio
1995). Error alone is always troubling but error alone does not support reversal.
Graham was required to show prejudice of some kind arose from the claimed error.
Here, Graham failed singularly and cumulatively.
C. Nature of proceedings – the record on appeal was limited to plain error
standard of review
Among the reasons for granting his Writ of Certiorari, Graham suggests
appellate review without cumulative error analysis is only half complete resulting in
review for “overwhelming evidence of guilt” rather than a fair trial. Graham’s
suggestion reveals a misunderstanding of the record on review. As stated above, 3 of
Graham’s 4 references to the decision were items that trial counsel did not object to
during the trial court proceedings. Graham, 2020-Ohio-6700, at ¶ 74, 78, 92. Without
20

an objection, the trial court did not have the opportunity to rule on the issue and the
matter was limited to a plain error standard of review on appeal. Id. at ¶ 31, 64, 95.
Under plain error, the burden was upon the defendant not the state to establish
prejudice. Ohio Crim.R. 52(B).
When Graham also raised the issue of ineffective assistance of counsel for
failing object at trial, the Supreme Court of Ohio found Graham failed establish the
prejudice prong of the test announced by this Court in Strickland v. Washington, 466
U.S. 668, 694 (1984). Graham, 2020-Ohio-6700, at ¶ 51, 112. On appeal, Graham’s
appellate counsel asserted the cumulative affect of trial counsel’s performance
failings rendered his service below the permissible constitutional standard causing
prejudice consistent with Strickland. The Supreme Court of Ohio reviewed all claims
of ineffective assistance of counsel raised throughout the various propositions of law
including several new claims asserted for the first time in Graham’s cumulative-error
proposition of law. Counsel’s only deficient performance was failing to object to the
admission of the photograph depicting Graham holding the guns but “that error did
not result in prejudice that deprived him of a fair trial.” Id. There was no merit with
Graham’s ineffective assistance of counsel cumulative-error claim because there were
not multiple errors to review. Graham, 2020-Ohio-6700, at ¶ 172.
Many of the issues Graham complains of on petition were not preserved in his
trial court proceedings. The trial court did not have the opportunity to react to an
objection and address the legal issue. The lack of objections at trial limited the
majority of Graham’s issues to plain error review on direct appeal. Graham failed in

21

his plain error burden to demonstrate plain error. Moreover, his guilt was established
beyond a reasonable doubt by the testimony of the co-defendants and victims. A fatal
shot was fired inside an apartment during an active robbery and burglary and the
State’s witnesses include everyone who was present inside the apartment except the
defendant and decedent. Graham’s guilt was established beyond a reasonable doubt
by the testimony of the co-defendants and victims. Rather than present this Court
with multiple constitutional errors that require a cumulative error analysis, Graham
has presented this Court with multiple perceived misstatements of fact and law and
multiple plain error failures. This Court should deny Writ of Certiorari regarding
Graham’s Second Question Presented.
CONCLUSION
For the foregoing reasons, the State of Ohio respectfully request that this Court
deny the Petition for Writ of Certiorari.
Respectfully submitted,
VICTOR V. VIGLUICCI
Prosecuting Attorney
Portage County, Ohio
/s/ Pamela J. Holder
PAMELA J. HOLDER
Assistant Prosecuting Attorney
Counsel of Record
Portage County Prosecutor’s Office
241 South Chestnut Street
Ravenna, Ohio 44266
(330) 297-3850
(330) 297-3856 (fax)
pholder@portageco.com
Counsel for Respondent
22

